                                                       U.S. Department of Justice

                                                       United States Attorney
                                                       Eastern District of New York
                                                       One Pierrepont Plaza

                                                       Brooklyn, New York 11201

                                    Mailing Address:   147 Pierrepont Street
                                                       Brooklyn, New York 11201


FOR IMMEDIATE RELEASE                                  April 29, 2004

Contact:

Robert Nardoza
United States Attorney’s Office
(718) 254-6323

David Barnes
U.S. Department of Transportation
Office of Inspector General
(202) 366-6312



                               PRESS RELEASE

              CONNECTICUT MAN SENTENCED TO 46 MONTHS
           IN PRISON FOR SMUGGLING HAZARDOUS MATERIALS
                  ONBOARD A COMMERCIAL AIRCRAFT

              ROSLYNN R. MAUSKOPF, United States Attorney for the Eastern District of

New York, and KENNETH M. MEAD, Inspector General for United States Department of

Transportation ("DOT"), announced that BERNARD WILLIAMS of Norwalk, Connecticut, was

sentenced by United States District Judge Nina Gershon to 46 months in prison and 3 years of

supervised release, and ordered to pay $600 in restitution and a $7,500 fine. WILLIAMS

smuggled fourteen gallons of highly concentrated ammonia onboard a commercial flight from
Fort Myers, Florida, to LaGuardia Airport in Queens, New York. The type of ammonia that

WILLIAMS transported was extremely toxic and had been classified as a hazardous material

pursuant to DOT regulations.

               On July 15, 2003, WILLIAMS was convicted after a two-week jury trial of the

charge of recklessly transporting hazardous materials in violation of Title 49, United States

Code, Section 46312. The evidence at trial established that, on February 15, 2002, WILLIAMS

checked two large cardboard boxes containing fourteen one-gallon jugs of highly concentrated

ammonia onboard a Spirit Airlines flight from Florida to New York. Each of the jugs contained

a conspicuous label, which warned that the ammonia was a dangerous substance that could be the

source of toxic vapors. WILLIAMS concealed these warning labels by transporting the ammonia

in commercially sealed boxes that were marked as “Cat’s Pride Kitty Litter.” Once the flight

was airborne, noxious fumes began to seep into the passenger cabin. Several passengers became

nauseous and developed difficulty breathing after inhaling the fumes. A six-week old baby who

was on the flight lost consciousness and had to be hospitalized. After the flight landed, it was

determined that one of the fourteen ammonia jugs that WILLIAMS smuggled onboard had

broken open, releasing the fumes that caused the passengers to become ill.

               “BERNARD WILLIAMS recklessly risked the health and safety of over eighty

passengers, including an infant child, by transporting toxic chemicals on a commercial flight,”

stated United States Attorney ROSLYNN R. MAUSKOPF. “What should have been a routine

flight turned into a terrifying experience for the crew and passengers. The Court’s sentence

today sends a strong message that those who jeopardize the safety of our skies will be prosecuted



                                                 2
to the full extent of the law.” Ms. MAUSKOPF thanked the Federal Aviation Administration

for its assistance in this case.

                United States Department of Transportation Inspector General KENNETH M.

MEAD stated, “The special agent of my New York office who investigated this matter worked

closely with the Federal Aviation Administration and the Justice Department to bring this

significant case to resolution. The transportation of hazardous material is an area in which the

safety and security of the public intersect. The message here is that the Departments of

Transportation and Justice are committed to strong enforcement of hazardous materials laws and

regulations for the safety and security of the public.”

                The government's case was prosecuted by Assistant United States Attorneys

Michael A. Asaro and Christina Dugger.




The Defendant:
Name: BERNARD WILLIAMS
DOB: 05/21/48
Residence: Norwalk, CT




                                                  3
